                MOTIVATION, EDUCATION AND TRAINING, INC.
                             NEW CANEY, TX
                                  ***

                               AUDIT REPORT ON
                      U.S. DEPARTMENT OF LABOR GRANT
                             NUMBER AC-10727-00-55




                                Performance Audit for
                    Program Year July 1, 2000 through June 30, 2001




This audit was performed by Harper, Rains, Stokes & Knight, P.A., Certified Public
Accountants, under contract to the Inspector General, and, by acceptance, it becomes a report
of the Office of Inspector General.


                                                  __________________________________
                                                      Assistant Inspector General for Audit


                                                         Report Number: 21-03-015-03-365

                                                         Date Issued: August 14, 2003
                                                 TABLE OF CONTENTS


                                                                                                                                   Page

ACRONYMS .............................................................................................................................i

EXECUTIVE SUMMARY....................................................................................................... 1

INTRODUCTION AND BACKGROUND.............................................................................. 2

OBJECTIVES, SCOPE AND METHODOLOGY ................................................................... 3

RESULTS OF AUDIT.............................................................................................................. 5

SCHEDULES

    Schedule A - Schedule of Costs Reported ........................................................................... 6

    Schedule A-1 - Schedule of Costs Reported, Supplemental Information............................ 7

    Schedule B - Schedule of Performance Reported ................................................................ 8
                                        ACRONYMS



CFR   -   Code of Federal Regulations

DOL -     U.S. Department of Labor

DMSF -    Division of Migrant and Seasonal Farmworkers

ETA   -   Employment and Training Administration

FSR   -   Financial Status Report

MET -     Motivation, Education and Training, Inc.

NFJP -    National Farmworker Jobs Program

OMB -     Office of Management and Budget

OIG   -   Office of Inspector General

WIA   -   Workforce Investment Act




                                            i
                                      EXECUTIVE SUMMARY

The U.S. Department of Labor (DOL), Office of Inspector General (OIG), contracted with Harper,
Rains, Stokes & Knight P.A. to perform an audit of the National Farmworker Jobs Program (NFJP) to
determine whether the program was operating in accordance with applicable regulations. DOL provides
53 grants to states and non-profit organizations to operate the program within 48 states and Puerto Rico.
We selected a statistical sample of 9 grantees for review and tested the direct and indirect costs claimed
for reimbursement by these grantees to determine if the costs claimed were reasonable, allowable and
allocable under the cost principles set forth in OMB Circular A-122, or OMB Circular A-87, as
applicable, and grant guidelines, and performance reported to determine whether it was accurate and
properly supported. The NFJP was audited for program year 2000 (July 1, 2000 through June 30,
2001).

This report presents the results of our audit of Motivation, Education and Training, Inc. (MET) under
DOL Grant Number AC-10727-00-55. Under the authority of the Workforce Investment Act (WIA),
DOL's Employment and Training Administration (ETA) awarded MET a grant in the amount of
$6,475,747 to provide training and services to eligible migrant and seasonal farmworkers in the state of
Texas to strengthen their ability to achieve economic self-sufficiency. MET operates an administrative
office in New Caney with satellite offices in Brownsville, Brownwood, Corpus Christi, Crystal City,
Eagle Pass, Edinburg, El Paso, Laredo, Plainview, San Antonio, Sinton and Weslaco.

The primary objectives of our audit were to determine whether the costs claimed by MET the period
July 1, 2000 through June 30, 2001, under the DOL grant were reasonable, allowable, and allocable
under the cost principles set forth in OMB Circular A-122 and grant guidelines, and to determine that
performance reported was accurate and properly supported.

In program year 2000, MET served 2,609 participants, of whom 2,341 were terminated during the year.
The largest group of those exiting (1,682) was farmworkers who received Support Services Only, most
commonly food or transportation assistance. The second largest group (484) was Entered Unsubsidized
Employment, followed by All Other Terminations (95) and Employability Enhancement Only (80).

Our audit resulted in no findings or questioned costs. All items reviewed in the testing of the financial
data reported were found to be supported and allowable under grant guidelines and cost principles. The
performance data totals reported were found to be accurate and supported based on the testing
performed.




                                                    1
                       INTRODUCTION AND BACKGROUND

The Division of Migrant and Seasonal Farmworkers (formerly the Division of Seasonal
Farmworker Programs) within ETA is responsible for administering the National Farmworker
Jobs Program (NFJP). The intent of NFJP, under section 167 of the Workforce Investment Act,
is to strengthen the ability of eligible migrant and seasonal farmworkers and their families to
achieve economic self-sufficiency through job training and other related services that address
their employment related needs. Assistance from the NFJP is accessed through the NFJP grantee
partners and local One-Stop Centers.

MET, a 501 (c)(3) private non-profit organization, was incorporated in 1967 for the purpose of
providing academic and vocational training to migrant and seasonal farmworkers and their
dependents in order to further develop this target group’s economic self-sufficiency. Since its
inception, MET has extended its focus to include initiatives that target low- income and
disadvantaged populations within their service area which includes operations in Louisiana,
Minnesota, North Dakota and Texas. In Texas, MET operates an administrative office in New
Caney with satellite offices in Brownsville, Brownwood, Corpus Christi, Crystal City, Eagle
Pass, Edinburg, El Paso, Laredo, Plainview, San Antonio, Sinton and Weslaco. From these
offices, MET provides core, intensive and training services to eligible migrant and seasonal
farmworkers and their families.

MET was awarded a grant in the amount of $6,475,747 to provide training and services to
eligible migrant and seasonal farmworkers. Core services include outreach, admission and
orientation of farmworkers, as well as emergency assistance needed by farmworkers to sustain
their participation in the agricultural workforce. Intensive services include in-depth assessments
of aptitudes and abilities and the development of an Individual Employment Plan based upon
these assessments. Training services are usually in the context of a classroom environment and
are provided by institutions that subcontract with MET on a per-participant basis according to the
objectives of the participant’s individual employment plan. In addition, MET frequently makes
arrangements with employers for participants to obtain work experience which sometimes leads
to permanent employment opportunities for the participants upon completion of their work
experience training.




                                                2
                     OBJECTIVES, SCOPE, AND METHODOLOGY


The primary objectives of our audit were to determine whether the costs claimed by MET the
period July 1, 2000 through June 30, 2001, under the DOL grant were reasonable, allowable, and
allocable under the cost principles set forth in OMB Circular A-122 and grant guidelines, and to
determine that performance reported was accurate and properly supported.

Our audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Our audit included such tests of the accounting
records and other accounting procedures, as we considered necessary in the circumstances.

Our audit was performed using the criteria we considered relevant. These criteria included those
established by the Federal Government in: OMB Circulars A-110, Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals and
Non-Profit Organizations, and A-122, Cost Principles for Non-Profit Organizations; the
Workforce Investment Act of 1998 (WIA); 20 CFR Part 669 National Farmworker Jobs Program
under Title 1 of the WIA; and 29 CFR Parts 95 and 96, Administrative Requirements and Audits
of Federally Funded Grants, Contracts, and Agreements.

Management Controls

To meet the aforementioned objectives, we reviewed management controls over relevant
transaction cycles. Our work on established management controls included obtaining and
reviewing policies and procedures manuals, interviewing key personnel, and reviewing selected
transactions to observe the controls in place. Our testing related to management controls was
focused only on the controls related to our audit objectives of reviewing the reported cost and
performance data and was not intended to form an opinion on the adequacy of management
controls, and we do not render such an opinion. Our testing disclosed no weaknesses in
management controls.

Compliance with Laws & Regulations

In order to determine compliance with the above-mentioned laws and regulations, we performed
detailed tests of transactions and tested a sample of participants who were enrolled in the
program during our audit period. Our detailed tests of transactions included both ana lytical
review and substantive tests of accounts. Our testing related to compliance with laws and
regulations was focused only on the laws and regulations relevant to our audit objectives of
reviewing the reported cost and performance data and was not intended to form an opinion on the
compliance with laws and regulations as a whole, and we do not render such an opinion. Our
testing disclosed no instances of non-compliance.

Our sample universe of participants included all participants enrolled during the period.
In program year 2000, MET served 2,609 participants, of whom 2,341 were terminated during
the year. The largest group of those exiting (1,682) was farmworkers who received Support
Services Only, most commonly food or transportation assistance. The second largest group
(484) was Entered Unsubsidized Employment, followed by All Other Terminations (95) and
Employability Enhancement Only (80). We reviewed a sample of 89 participant files. Our

                                               3
sampling technique was a statistical random number selection so that all participants had an
equal chance of being selected. Procedures performed on the selected participants included
reviewing the eligibility determination, reviewing the types of services provided and the cost of
those services, and reviewing the program outcome for those exiting the program.

The costs claimed and performance reported by MET are presented on the Schedules of Costs
Claimed and Performance Reported in this report. These schedules, included as schedules A and
B, respectively in this report, are based on the information reported to ETA in the Financial
Status Report and the Program Status Summary.


 Entrance and Exit Conferences


We held an entrance conference on March 4, 2002, during which we met with officials of MET
to discus s the purpose, scope and timing of the audit work to be performed. We held an exit
conference with these same officials on April 12, 2002, to discuss the results of our audit and to
obtain their comments. The audit resulted in no findings or questioned costs.




                                                 4
                               RESULTS OF AUDIT


Our audit consisted of examining MET’s financial records to ensure that all program and
administrative costs, both direct and indirect, charged to the federal government were reasonable,
allowable and, where applicable, allocable among cost objectives. This examination involved
sampling cost categories that were material to the total costs claimed and then testing those items
selected to ensure they were charged in accordance with all federal regulations, guidelines and
other criteria we believed to be relevant. The audit procedures applied to those items within the
specific cost categories selected for testing resulted in no findings or questioned costs.

Included in our consideration of the direct program expenditures made by MET was an
examination of the participant files, which documented the services provided to individuals
participating in the National Farmworker Jobs Program. This examination was conducted in
order to determine that those individuals receiving services and training from MET were eligible
recipients in accordance with the terms of the grant. This examination was also conducted to
determine that the specific character and amounts associated with the provision of these services
represented charges made in accordance with the terms of the grant. In conjunction with the
OIG statistician, we made a random selection of participants from the population of participants
served by MET, which resulted in a total of 89 participant files to be reviewed. The audit
procedures applied resulted in no findings or questioned costs associated with any of those
participant files selected for testing.

Our participant sample was made up primarily of support service only participants. This
represented 75 of our sample of 89. The remainder of the sample was participants placed in
work experience job placements. Of these 14 participants, 5 were successfully placed in
unsubsidized employment, and the remaining 9 received training services only.

We reviewed the data reported by MET on the program status summary to determine whether
this information was accurate and properly supported. We were able to verify the overall totals
reported when we compared the information to the databases MET maintained. A summary of
this data can be found on Schedule B - Schedule of Performance Reported.

Our testing of this data included reviewing the underlying support for the preparation of the
program status summary as a whole, and reviewing the reported program information for the
sample of participants selected for testing. The results of our review agreed with the reported
outcomes for those participants that exited the program. We were also able to verify the
placement of those participants with a job placement outcome.




                                                 5
                                                                             Schedule A


                 MOTIVATION, EDUCATION AND TRAINING, INC.

                         SCHEDULE OF COSTS REPORTED



                     Financial Status Report               Reported

                     1.Total Program Costs                 $ 4,905,812
                         a. Related Assistance                 535,381
                         b. All Other Program Services       4,370,431
                     2. Administrative Costs                   411,346
                     3. Total Grant Costs                   $ 5,317,158


Terms Used Above:

Related Assistance     Costs of related assistance provided to participants including costs
                       for emergency support such as food, transportation, or shelter
                       needs.

All Other Program      All costs of operating the program including salaries, overhead, and
                       participant costs not displayed as related assistance or
                       administrative.

Administrative         Salaries and overhead costs related to general administration of the
                       program and not directly providing program services. Costs are
                       limited under the grant agreement.




                                              6
                                                                     Schedule A-1


                 MOTIVATION, EDUCATION AND TRAINING, INC.

                        SCHEDULE OF COSTS REPORTED
                             Supplemental Information
                         Program Year Ended June 30, 2001

                                                      Incurred
         Category                                       Costs        Subtotals

         1. Total Program Costs
            a. Related Assistance
                 1. Supportive Services Only       $ 440,312
                 2. Supportive Services –All Other      95,069         535,381
            b. All Other Program Services
                 1. Salaries & Fringe Benefits       1,717,569
                 2. Training Costs                   2,281,284
                 3. Office Costs & Overhead            371,578        4,370,431
         2. Administration
            A. Salaries and Fringe Benefits        $    48,128
            B. Office Costs & Overhead                  12,904
            C. Indirect Costs                          350,314         411,346

         3. Total                                    $ 5,317,158    $ 5,317,158


Note: The above information is not required to be reported to ETA, and was created by
reviewing the financial records used in the preparation of the Financial Status Report.




                                            7
                                                                   Schedule B


       MOTIVATION, EDUCATION AND TRAINING, INC.

           SCHEDULE OF PERFORMANCE REPORTED
               Program Year Ended June 30, 2001


Category                                      Planned   Reported

Total Participants                            1,400       2,609
 Total Terminations                           1,340       2,341
   Entered Unsubsidized Employment              653         484
       Direct Placement                          -          -
       Indirect Placement                        -          -
   Also Obtained Employability Enhancement       -          -
   Employment Enhancement Only                   -           80
   Services Only                                 -        1,682
   All Other Terminations                       687          95
 Total Current Participants (End of Period)      60         268




                                8
                                                      Schedule B-Continued


                 MOTIVATION, EDUCATION AND TRAINING, INC.

                     SCHEDULE OF PERFORMANCE REPORTED
                         Program Year Ended June 30, 2001

Terminology Used

Participants                           Disadvantaged migrant and seasonal
                                       farmworkers and their dependents.

Total Participants                     Participants that were provided any services
                                       during the program year. Includes
                                       participants carried over, new participants,
                                       and those exiting during the program year.

Total Terminations                     Participants who exited the program during
                                       the year.

Entered Unsubsidized Employment        Participants placed in a non- federally
                                       subsidized job.

Direct Placement                       Participants referred directly to a job with no
                                       training services provided. (Detail not
                                       required to be reported under WIA).

Indirect Placement                     Participants placed in a job after training or
                                       enhancement services. (Detail not required
                                       to be reported under WIA).

Also Obtained Employability
Enhancement                            Participants placed that also received
                                       services improving job prospects, such as
                                       completing GED program, obtaining a
                                       degree, completing occupational training.
                                       (Detail not required to be reported under
                                       WIA).

Employment Enhancement Only            Participants not placed in a job, but exiting
                                       the program with enhancements to improve
                                       job prospects. See examples above. (Detail
                                       not required to be reported under WIA).


                                      9
Services Only             Participants that exited the program with
                          support services only, with no training or
                          referral to employment.

All Other Terminations    Participants that exited the program that do
                          not fall into any other termination category.




                         10
